<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 HAROLD ROGERS, Kentucky               JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                    ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina     ROBERT E. ``BUD'' CRAMER, Jr., 
 RALPH REGULA, Ohio                    Alabama
 DAVID VITTER, Louisiana               PATRICK J. KENNEDY, Rhode Island
 JOHN E. SWEENEY, New York             MARTIN OLAV SABO, Minnesota      
 MARK STEVEN KIRK, Illinois 
                                                                                                                                                
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Mike Ringler, Christine Kojac, Leslie Albright, and John F. Martens
                           Subcommittee Staff
                                ________
                                 PART 3
                                                                   Page
 Broadcasting Board of Governors..................................    1
 Department of State..............................................  107

                                   

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 89-464                     WASHINGTON : 2003


                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                         DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                    JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky                    NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia                    MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                         STENY H. HOYER, Maryland
 JAMES T. WALSH, New York                   ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina          MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                      PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma            NITA M. LOWEY, New York
 HENRY BONILLA, Texas                       JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan                  ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                     JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey        JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi               ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,                 DAVID E. PRICE, North Carolina
Washington                                  CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,                 ROBERT E. ``BUD'' CRAMER, Jr., 
California                                  Alabama
 TODD TIAHRT, Kansas                        PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                       JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                           MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky                  LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama                SAM FARR, California
 JO ANN EMERSON, Missouri                   JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                         CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania             ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia             CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California              STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                       SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York                  MARION BERRY, Arkansas            
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida   
                                                                                                                                            
                                    
                                    
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            
                 James W. Dyer, Clerk and Staff Director

                                  (ii)


                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
